No. ___________
In the
Supreme Court of the United States
SHAQUERE MYLESHIA GRAY, Co-Administratrix
of the Estate of Gregory Tremaine Miller; HANNAH
LASHA HOZE, Co-Administratrix of the Estate of
Gregory Tremaine Miller,
Petitioners,
v.
ALABAMA GREAT SOUTHERN RAILROAD
COMPANY,
Respondent.
_________________________________________
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
__________________________________________
PETITION FOR A WRIT OF CERTIORARI
__________________________________________

C. E. Sorey, II
Counsel of Record
James R. Ferguson
Law Office of H.
Chris Christy
1000 Highland Colony
Parkway, Ste. 5203
Ridgeland, MS 39157
Telephone: (601) 341-6929

James R. Sullivan, Sr.
Sullivan, Sullivan &
Thompson, PLLC
P.O. Box 1131
Laurel, MS 39441-0045
(601) 428-1505

Counsel for Petitioners

i

QUESTIONS PRESENTED
The questions presented are:
1. Whether the Court of Appeals for the 5th Circuit
has deviated from established Supreme Court
precedent under the Federal Employers Liability
Act
(“FELA”),
most
recently
in
CSX
Transportation, Inc. v. McBride, 131 S. Ct. 2630
(2011)?

ii

RELATED CASES STATEMENT
•

Shaquere Myleshia Gray, Co-Administratrix of
the Estate of Gregory Tremaine Miller;
Hannah Lasha Hoze, Co-Administratrix of the
Estate of Gregory Tremaine Miller, Case No.
17-60817, United States Court of Appeals for
the Fifth Circuit, judgment entered May 28,
2020, rehearing denied July 16, 2020.

•

Shaquere Gray and Hannah Hoze, appearing
as co-personal representatives on behalf of the
Estate of Gregory Tremaine Miller, Civil
Action No. 2:16-cv-25, judgment entered
November 17, 2017.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
RELATED CASES STATEMENT ............................. ii
TABLE OF CONTENTS............................................ iii
TABLE OF APPENDICES ........................................ iv
TABLE OF CITED AUTHORITIES ...........................v
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 2
JURISDICTION ......................................................... 2
STATUTORY PROVISIONS INVOLVED ................. 2
STATEMENT OF THE CASE ................................... 3
1.

Factual background................................... 3

2.

Trial court proceedings ............................. 8

3.

United States Court of Appeals for the
Fifth Circuit ..............................................10

REASONS FOR GRANTING THE PETITION ........15
1.

The Circuit Court of Appeals for the Fifth
Circuit has deviated from established
Supreme Court precedent ........................15

iv

TABLE OF APPENDICES
Page
APPENDIX A – ORDER DENYING PETITION
FOR REHEARING OF THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED JULY 16, 2020 .............................1a
APPENDIX B – JUDGMENT OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED MAY 28, 2020..................3a
APPENDIX C – MEMORANDUM ORDER
OF THE UNITED STATES COURT OF
APPEALSFOR THE FIFTH CIRCUIT,
FILED MAY 28 ..........................................................5a
APPENDIX D – JUDGMENT OF THE UNITED
STATED DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF MISSISSIPPI,
FILED NOVEMBER 17, 2017 ................................28a
APPENDIX E – MEMORANDUM OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI, FILED NOVEMBER 17, 2020........30a
APPENDIX F – RELEVANT STATUTORY
PROVISIONS ..........................................................38a

v

TABLE OF CITED AUTHORITIES
Cases
A., T. S.F. Ry. Co. v. Toops, 281 U.S. 351
(1930)..........................................................................28
Atchinson, Topeka &Santa Fe Ry. Co. v. Buell,
480 U.S. 557 (1987)....................................................16
Atlantic & Gulf Stevedores, Inc. v. Ellerman
Lines, Ltd., 369 U.S. 355, reh. denied, 369
U.S. 882 (1962)...........................................................18
Baily v. Central Vermont Ry., 319 U.S. 350
(1943)..............................................................18, 19, 20
Boeing Co. v. Shipman, 411 F.2d 365 (5th Cir.
1969) ...........................................................................18
Caillouette v. Baltimore & Ohio Chicago
Terminal R.R. Co., 705 F2d 243 (7th Cir.
1983) ...........................................................................27
Consolidated Rail Corporation v. Gotshall, 512
U.S. 532 (1994)...........................................................15
CSX Transportation, Inc. v. McBride, 131 S.
Ct. 2630 (2011) .................................................1, 14, 16
Eaton v. Long Island R. Co., 398 F.2d 738 (2d
Cir. 1968)....................................................................18

vi

Eckert v. Aliquippa & Southern R. Co., 828
F.2d 183 (3rd. Cir. 1987) ...........................................17
Eggert v. Norfolk & Western Railway Co., 538
F.2d 509 (2d Cir. 1976) ..............................................18
Gadsden v. Port Authority TransHudson Corp.,
140 F.3d 207 (2d Cir. 1998) .......................................18
Gallick v. Baltimore and Ohio Railroad Co.,
372 U.S. 108 (1963)..............................................23, 24
Gans v. Mundy, 762 F.2d 338 (3rd Cir. 1985)..............17
Gray v. Ala. Great S. R.R. Co. ....................................... 2
Gray v. Ala. Great S. R.R. Co. 960 F.3d 212
(5th Cir. 2020) ............................................................. 2
Gray v. Ala. Great S. R.R. Co., 960 F.3d 212
(5th Cir. 2020) ............................................................. 1
Green v. CSX Trans. Co., 414 F.3d 758 (7th Cir.
2005) ...........................................................................18
Green v. River Term. Ry., 585 F. Supp. 1019
(N.D.Ohio 1984), aff’d 763 F.2d 805 (6th Cir.
1985) ...........................................................................16
Habrin v. Burlington Northern Ry. Co., 921
F.2d 129 (7th Cir. 1990) ......................................17, 18

vii

Hauser v. Chicago, Milwaukee, St. Paul &
Pacific R.R. Co., 346 N.W.2d 650 (Minn.
1985) ...........................................................................17
Hines v. Consolidated Rail Corp., 926 F.2d 262
(3rd Cir. 1991) ............................................................17
Huffman v. Union Pac. R.R., 675 F.3d 412
(5th Cir. 2012) .....................................................1, 15
Jacob v. City of New York, 315 U.S. 752, 62
S.Ct. 854, 86 L.Ed. 1166 (1942).................................29
Lavender v. Kurn, 327 U.S. 645 (1946) ..................21, 22
McCarthy v. Pennsylvania R.R. Co., 156 F.2d
877 (7th Cir. 1946) .....................................................28
Mendoza v. Southern Pacific Trans. Co., 733
F.2d 631 (9th Cir. 1984) ......................................16, 17
Metro-North Commuter Rail Co. v. Buckley,
521 U.S. 424 (1997)....................................................15
Padgett v. Southern Ry. Co., 396 F.2d 303 (6th
Cir. 1968)....................................................................28
Pehowic v. Erie Lackawana. Railroad Co., 430
F.2d 697 (3rd Cir. 1970) ............................................17
Poleto v Conrail, 827 F.2d 1270 (3rd Cir. 1987) ..........16
Rogers v. Missouri Pac. R.R., 352 U.S. 500
(1957)........................................................ 14, 16, 17, 18

viii

Sinkler v. Missouri Pacific R.R. Co., 356 U.S.
326 (1958) ...................................................................15
Smith v. Soo. Line R.R. Co., 617 N.W.2d 437
(Minn. Ct. App. 2000) ................................................17
Syverson v. Consolidated Rail Corporation, 19
F.3d 824 (2d Cir. 1994) ..............................................18
Tennant v. Peoria and Pekin Union Railway
Co., 321 U.S. 29 (1944) ............................ 20, 21, 24, 28
Thrasher v. B&B Chem. Co., Inc., 2 F.3d 995
(10th Cir. 1993) ..........................................................29
Tiller v. Atlantic Coast Line R.R. Co., 318 U.S.
54, 63 S.Ct. 444, 87 L.Ed. 610 (1943)........................29
Statutes
28 U.S.C. § 1257(a) ........................................................ 2
45 U.S.C. § 51 ................................................................. 2
45 U.S.C. § 53 ................................................................27
Regulations
49 C.F.R. § 218.99 ................................................. passim

1
INTRODUCTION
Since this Court’s decision in McBride v. CSX,
131 S. Ct. 2630 (2011), there has been a concentrated
effort to limit the scope of this Court’s affirmation of
the significantly lower standard of proof required in
a FELA case for submission to a jury. As recognized
by at least one of the judges of the United States
Court of Appeals for the Fifth Circuit, the Fifth
circuit in particular has failed:
to account for the special features of
FELA's negligence action that make it
significantly different from the ordinary
common-law negligence action, contributes
to the steady erosion and undermining of
the right to a jury trial under FELA in this
Circuit. See also Huffman v. Union Pac.
R.R., 675 F.3d 412, 426, 433 (5th Cir. 2012)
(Dennis, J., dissenting) ("The evidence in
this case is manifestly sufficient to meet
the test of a jury case under the FELA,
which is simply whether employer
negligence played any part, even the
slightest, in producing the injury.").

Gray v. Ala. Great S. R.R. Co., 960 F.3d 212, 223 (5th
Cir. 2020) (Dennis, J., dissenting). As has been noted
by this Court for over 100 years, in enacting the
FELA, Congress intended to shift the burden of life
and limb from the employee to the employer.
Allowing railroads and courts to continue to cut away
at the FELA’s intended remedial effect is contrary to
this Court’s precedent as well as Congress’ intent.

2

OPINIONS BELOW
In the United States Court of Appeals for the
Fifth Circuit this case was docket numbered 1760817, captioned Gray v. Ala. Great S. R.R. Co. The
date of entry of judgment was May 28, 2020. The
Court’s opinion is reproduced in the Appendix at 5a27a and reported at 960 F.3d 212 (5th Cir. 2020).
Rehearing was denied on July 16, 2020, reproduced
at 1a-2a.
In the United States District Court for the
Southern District of Mississippi this case was docket
numbered 2:12-cv-25, captioned Gray v. The Ala.
Great S. R.R. Co. The date of entry of judgment was
November 17, 2017. The Court’s opinion has not been
reported but is reproduced in the Appendix at 30a37a.
JURISDICTION
The United States Circuit Court for the Fifth
Circuit entered judgment sought to be reviewed on
May 28, 2020 with rehearing denied on July 16,
2020. This Court has jurisdiction to review this
judgment on a writ of certiorari under 28 United
States Code § 1257(a), Supreme Court Rule 10(a) and
this Court’s March 19, 2020 COVID 19 order.
STATUTORY PROVISIONS INVOLVED
This case concerns 45 U.S.C. §§ 51-57, which are
reproduced in the appendix at 38a-41a.

3

STATEMENT OF THE CASE
1. Factual background.
Gregory
Tremaine
Miller,
a
20-year-old
conductor-trainee (C-T) had been employed by AGS
for 45 days. App. 19a. He had no previous railroad
experience. He had completed Phase I of his training,
which consisted of 19 days of classroom and field
training at the AGS Training Center in McDonough,
Georgia. App. 19a. Mr. Miller then returned to
Mississippi for on-the-job training.
On August 12th, 2015, Mr. Miller was assigned to
a train crew consisting of a conductor, M.A. Sillimon;
a brakeman, J.D. Henderson; and an engineer, A.C.
Clearman. App. 6a. The crew was assigned to work
Dragon Yard, which consisted of a number of
liquified gas plants and a small AGS yard. This was
Mr. Miller’s first time to work in Dragon Yard.
Each day as the shift started it was the duty of
the employees to hold a briefing on the upcoming job.
The conductors, per the Conductor’s Training
Workbook, are required to make sure that their job
briefings take place at the start of the shift and every
time the job changes.
Mr. Sillimon recalled that he announced, “Watch
for any live equipment, watch for any footing area,
and also beware because we are working at night.”
Mr. Sillimon further stated at that job briefing that
he told Mr. Miller to be aware of live equipment and

4
to stay close by. Mr. Miller was assigned to
Conductor Sillimon since Sillimon was the senior
conductor. However, according to Mr. Sillimon, AGS
also allowed C-Ts to work under the brakeman. On
this particular night, Mr. Miller’s senior man,
Sillimon, left him to be supervised by the far less
experienced brakeman Jerrell Henderson. App. 24a.
Mr. Henderson went to work for AGS in August
2014 and became a qualified conductor on December
12th, 2014. Thus, at the time of the accident, Mr.
Henderson had been a qualified conductor for eight
months. During 2015 and up to 2016, Mr. Henderson
was cited with five incidences of discipline for rules
violations. App. 24a. Mr. Sillimon, the Conductor,
went through the same training as Mr. Miller at
McDonough, then through field training at Meridian
working different industries. Mr. Sillimon said that
the conductors were in charge of his training at
Meridian.
On the night of the accident, once the crew
reached the Lone Star Gas facility, Mr. Sillimon, the
conductor, left the crew and performed an inspection
on the two tracks which the remainder of the crew
would enter to work after he gave the OK. After this
inspection Mr. Sillimon would be on the south end of
the track and the crew would be on the north end. At
this point, Sillimon could no longer see Miller and
had passed his duty to oversee Miller on to
Henderson. On this particular night, the crew was to
pick up a set of cars. These particular cars were
spotted individually, with approximately 10 feet
between each.

5

At this point, Sillimon was located on the other
end of the track, at least eleven car lengths away and
testified that he could not visualize Miller or
Henderson. Due to the location of Sillimon and
Henderson, Henderson now became the employee in
charge of the movement because Sillimon could no
longer visualize the point of the shoving movement
as required by 49 C.F.R. § 218.99.
Mr. Henderson then stated, “Everybody let me get
a big half to a bunch.” During deposition, he
explained that this terminology meant to perform a
“rolling couple.” He then explained that a rolling
coupling meant that once a coupling takes place, you
keep the engine moving and continue to couple all
the cars without stopping. App. 22a.
When asked about where the term “bunch” came
from, he stated that he could not recall. When asked
if this was something that he had studied at the
McDonough Training Center in Georgia, he replied,
“I can’t recall.” App. 22a. Mr. Sillimon stated that the
word “bunch” means that you keep going. When
asked if the term is from the AGS Safety Rules he
said that he did not know. He said that he first
learned of this term while working in Meridian in
field training. He also said that a rolling coupling
was not taught to him at McDonough Training
Center. App. 22a. This fact is confirmed by the
National Transportation Board Finding of Facts
concerning this accident on Page 5 of the Accident
Report:

6
“The
training
coordinator
further
explained that the training center does not
teach rolling couples. The classroom
training teaches trainees another method
which has them couple, turn on the air,
check the rail car, and then go to the next
rail car to make that coupling.” He stated
that, “although the practice of rolling
couples was probably in place for a long
time, there was nothing written in the
rules or guidelines that explains a rolling
couple.”
Thus, Mr. Miller at this point in time was
presented with terms that he was not trained to
understand such as “bunch.” Further, the method
used by this crew, which was neither explained to
him in job briefings or at his training at McDonough,
was totally unknown to him. The only method of
coupling he had ever used was to bring the engine to
a stop, make the first coupling, stop again and pull
the locomotive in the opposite direction to stretch the
train and ensure a solid coupling, stop the locomotive
again, and then continue backward to make the next
coupling; not to just keep plowing down the track.
When asked about the earlier job briefing, Mr.
Henderson said that there was nothing said to Mr.
Miller about Miller’s lack of experience and what he
needed to do that day. He also agreed that
identifying and explaining a bunch was something
that you would normally do for a conductor-trainee
when he is first assigned a new job.

7
In a shoving operation where the engineer pushes
cars hooked to him, the man on the point, in this case
Mr. Henderson, is supposed to count the engineer
down to the coupling. Then he is to walk along with
the cars and watch each coupling being made
ensuring that he can see the coupling occurring as
well as observe track between each coupling that is
to be made to ensure that it is clear of any
obstructions or persons.
Mr. Henderson stated that Mr. Miller was a half
of a car away from him before the coupling started.
Mr. Miller was South of Mr. Henderson in the
direction the train was travelling. Mr. Henderson did
not walk along and watch each coupling as the AGS
Rule and the code of federal regulations requires but
stood where the first coupling was to be made.
Mr. Henderson stated that his whole body was
facing north because he had his full attention on the
engine coming down, instead of protecting the point
of the shove and observing the couplings and
ensuring there was nothing on the tracks or
problems that would interfere with the coupling, as
required by 49 C.F.R. § 218.99. As he turned toward
the South after the first coupling was made, he made
the statement that he thought he saw a flash but did
not know what the flash was. Mr. Henderson said
that he told his engineer to stop. Mr. Henderson
started walking south down the track and found Mr.
Miller trapped between the coupling of the cars.
Mr. Henderson admitted that when Mr. Miller
was fatally injured, Miller was under his

8
supervision, but he did not remember discussing at
the job briefing that he was to supervise Mr. Miller.
When asked if he had any idea what Mr. Miller was
doing when Miller was pinned between the cars,
Henderson’s answer was, “No, sir.” The reason
Henderson did not know was because he had his
back to Mr. Miller, did not know what task Mr.
Miller was performing, and had not communicated
with Mr. Miller regarding the fact that the crew was
performing a rolling shove, when he was supposed to
be watching out for him, keeping him in sight, and
making sure that his C-T was not in danger.
Henderson, Sillimon and Clearman failed to follow
AGS and federal protocol, rules and regulations.
They chose to perform a rolling shove because it was
quicker. It is undisputed that a rolling shove is not
taught at AGS’s conductor school and it is
undisputed that Henderson could not and did not
visualize the coupling that was made that ultimately
killed Mr. Miller. This is a clear violation of 49
C.F.R. § 218.99.
2. Trial court proceedings.
On September 24, 2015, a FELA claim was filed
by Mona Shea Miller, decedent’s mother, for personal
injuries and wrongful death arising from an incident
that occurred near Petal, MS in which Gregory
Miller was crushed and killed between two rail cars.
Along with a standard FELA negligence claim, a
claim for absolute liability was made for violations of
the code of federal regulations.

9
On November 22, 2016, the disrict court approved
the substitution of Shaquere Myleshia Gray and
Hannah Lasha Hoze for Mona Shea Miller.
The co-administratrixes alleged that Alabama
Great Southern failed to supply Miller with a
reasonably safe place to work, failed to provide safe
working conditions, failed to provide proper
assistance, failed to to exercise due care and caution
commensurate with the surrounding circumstances,
and violated regulations enacted for the safety of
railroad workers found in title 49 of the Code of
Federal Regulations. Discovery insued. Alabama
Great Southern filed a motion for summary
judgment on September 29, 2017. The motion was
briefed by both sides. On November 17, 2017, the
district court issued its order in favor of Alabama
Great Southern and dismissing the complaint.
In its order, the district court hinged its opinion
solely on the issue of 3-step protection. The district
court explained that Miller had been taught 3-step
protection during his training and that he had
demonstrated on at least one other occasion that he
was aware of how to use it to cross between cars. 3step protection is the process taught to operating
craft employees where before crossing between
moving equipment, they are to radio the engineer
and ensure that no movement will take place. The
district court found that Miller was the sole casue of
his own injuries because he failed to use 3-step
protection at the time of his injury. The court also
found that it was not foreseeable that Miller would
attempt to go between cars.

10

The district court did not address any of the
issues raised by the Plaintiff’s regarding inproper job
briefing, failure to properly oversee and mentor
Miller, failure to comply with 49 C.F.R. § 218.99,or
failure to train Miller on the concept of a “bunch.”
3. United States Court of Appeals for the Fifth
Circuit.
On December 8, 2017, Plaintiffs filed a timely
notice of appeal to the United Stated Court of
Appeals for the Fifth Circuit. Briefs were filed by
both parties and oral argument was heard. The
Court issued its order on May 28, 2020 affirming the
summary judgment, with one judge dissenting.
The Court of Appeals entered into a much more
detailed discussion of the facts and addressed the
various arguments of both parties. The Court started
with the plaintiffs’ argument that Henderson was
negligent in his supervision of his conductor-trainee,
Miller. In holding that there was no evidence
Henderson was negligent, the Court found that
Henderson was a certified conductor and that there
was no written policy stating a mentor can “never
stop looking at a conductor-trainee.” The Court
stated the the plaintiffs agreed that Henderson was
to observe the couplings. However, once again there
is no discussion of Alabama Great Southern’s rule or
49 C.F.R. § 218.99, which both require that
Henderson be in a position to see whether there was
anything fouling the track at the point of the
coupling. Had he been in a position to do so, he would

11
have had Miller in his site. There was no discussion
of the interplay between railroad safety regulations
and absolute liability. This fact was wholly ignored.
The Court stated that the only evidence as to the
rules for coupling was “testimony vaguely describing
a conductor and brakeman’s duty of ‘observing a
coupling.’” Again, the Court ignored testimony from
Plaintiffs’ expert witness stating that Henderson was
required under the Federal Railroad Administration
rules and regulations to be in a position to see any
obstructions that could foul the track, including
people.
Next, the Court turned to Plaintiffs’ argument
that it was negligent for Alabama Great Southern
and its other employees to not train Miller on a
“bunch” or “rolling coupling” prior to the movement
on the night in question. The Court admits that a
“failure of others to explain what was occuring could
have left him unaware of just how dangerous his
actions would be.” The Court then notes that the
only evidence of a source for Miller’s knowledge was
not identified by the railroad until oral argument.
The majority opinion reads into a qoute from
Sillimon’s deposition regarding the procedure for a
running coupling that Miller had experienced this
move earlier in the evening. However, the only qoute
ever identified by either the railroad or the Court
never says that this procedure had been used
previously with Miller at all, much less earlier that
evening. The Court quoted Sillimon’s deposition
stating:
Q: All right. And how many cars

12
did y'all work that night [at the
second location]? Do you know?
A: It was 20 -- it was 20 in, 20 out.
Q. Okay. And y'all have to spot all
20 of them?
A. That's correct.
Q. And how do y'all go about
spotting these cars? How do y'all
handle that?
A. You spot each car up one at a
time.
Q. Okay. And take me through
what you would do as the conductor,
what the brakeman would do, and
what the engineer would do in
spotting these cars.
A. As far as the brakeman and the
conductor, it can go either or.
Q. Okay.
A. I can walk down and do a C-100
[which he would later describe as
checking each car prior to starting the
coupling] and check everything, make
sure the hoses are -- make sure there’s
no one in the tracks, make sure the
hoses are down, make sure any chocks
or anything that we couple up to -- so it
won’t
derail
anything.
Or
the
brakeman can walk down and do a C100. And after we do a C-100, I’ll be in
position at the bottom. The brakeman
be in position at the top. He will make
the first coupling, and the rest of the
couplings be run-in coupling.

13
Q. And you refer to that as a
running couple?
A. That’s correct.
Q. And what -- what is a running
couple?

A. When you couple up to the -- you got
to make sure you coupled up to the first
car. Once you coupled up to the first car,
you bunch to the next car. Then you bunch
and then you bunch until you get to the
last two cars. You stop the move. You
couple up to that second to the last car,
and then you couple up to the next car.

As can be seen from the above quote, there is no
mention of a previous use of a running coupling. Just
as telling, Judge Dennis wrote in his decent that he
did not see any evidence in Sillimon’s deposition to
show that Miller had ever been exposed to this term
or movement prior to his injury.
Finally, the Court turned to the plaintiffs’
argument that it was foreseeable that Miller could go
between the cars. The Court noted that “in some
circumstances it of course is foreseeable that railroad
employees will get between cars. In the
circumstances here, stepping between cars was
prohibited and the reason for the prohibition” would
have been that this was continuous coupling and
Miller had just witnessed this process earlier that
night. Here again, the Court relies on the testimony
highlighted from Sillimon’s deposition which does not
state anywhere that this procedure had just been
done earlier that evening, or that Miller had

14
witnessed it. The Court’s reasoning was flawed and it
read into the evidence facts that simply were not
there.
Based on the above analysis, the Court affirmed
summary judgment in favor of Alabama Great
Southern finding “though there is a lack of clarity as
to exactly what happened, Miller, unfortunately,
negligently went between the two cars” making him
the sole cause of his own injuries.
Judge Dennis vehemently dissented from the
majority stating that:
Submission of a FELA case to the
jury is required “in all but the
infrequent cases where fair-minded
jurors cannot honestly differ whether
fault of the employer played any part
in the employee’s injury.” Rogers v.
Missouri Pac. R.R., 352 U.S. 500, 510
(1957). This case is clearly not one of

those rare cases in which every
reasonable juror must conclude that
the employer's negligence played no
part - not even the slightest – in the
employee's injury and death. See id.;
McBride, 564 U.S. at 692. The
majority opinion, in failing to account
for the special features of FELA's
negligence action that make it
significantly
different
from
the
ordinary
common-law
negligence
action, contributes to the steady

15
erosion and undermining of the right
to a jury trial under FELA in this
Circuit. See also Huffman v. Union
Pac. R.R., 675 F.3d 412, 426, 433 (5th
Cir. 2012) (Dennis, J., dissenting)
("The evidence in this case is
manifestly sufficient to meet the test
of a jury case under the FELA, which
is
simply
whether
employer
negligence played any part, even the
slightest, in producing the injury.").

On July 16, 2020, the Court issued a per curium
order denying Plaintiffs’ petition for rehearing. App.
1a-2a.
REASONS FOR GRANTING THE PETITION
1. The Circuit Court of Appeals for the Fifth
Circuit has deviated from established
Supreme Court precedent.
The Supreme Court has made clear that the
FELA represents, “an avowed departure from the
rules of common law.” Sinkler v. Missouri Pacific
R.R. Co., 356 U.S. 326, 329 (1958). The FELA is a
“humanitarian” statute. Metro-North Commuter Rail
co. v Buckley, 521 U.S. 424, 438 (1997). Recognizing
the “special need” to protect railroaders from the
inherently dangerous nature of their work, Congress
enacted the FELA to “shift part of the human
overhead of doing business” from the employees to
the employers. Consolidated Rail Corporation v.
Gotshall, 512 U.S. 532, 542 (1994). Elsewhere, this
Court has written that, “We have recognized

16
generally that the FELA is a broad remedial statute
and have adopted ‘a standard of liberal construction
in order to accomplish [Congress’] objects.’”
Atchinson, Topeka &Santa Fe Ry. Co. v. Buell, 480
U.S. 557 (1987).
The Act strips employers of their common law
defenses of assumption of risk and contributory
negligence as a bar to recovery, Rogers v. Missouri
Pac. R.R., 352 U.S. 500, 506 (1957), and abandons
general concepts of proximate cause. Green v. River
Term. Ry., 585 F. Supp. 1019, 1024 (N.D.Ohio 1984),
aff’d 763 F.2d 805 (6th Cir. 1985). The Third Circuit
has stated, “The FELA represented a radical change
from the common law in an attempt to assure
workers a more sure recovery by abolishing many
traditional defenses.” Poleto v Conrail, 827 F.2d
1270, 1278 (3d Cir. 1987) (emphasis added).
Consistent with the humanitarian purpose of the
FELA, the standard for submitting a FELA case to
the jury is significantly less stringent than in the
ordinary negligence action. Rogers, 352 U.S. at 506;
Mendoza v. Southern Pacific Trans. Co., 733 F.2d
631, 633 (9thCir. 1984). Under the FELA, "the test of
a jury case is whether the proofs justify with reason
the conclusion that employer negligence played any
part, no matter how slight, in producing the injury or
death for which damages are sought.” CSX
Transportation, Inc. v. McBride, 131 S. Ct. 2630
(2011)(emphasis added). See also Rogers v. Missouri
Pacific R. Co., 352 U.S. 500 (1957). As a result, as
the Third Circuit Court of Appeals has held:
[A] trial court is justified in
withdrawing such issues from the
jury's consideration only in those

17
extremely rare instances where
there is a zero probability either of
employer negligence or that any such
negligence contributed to the injury of
an employee.
Pehowic v. Erie Lackawana. Railroad Co., 430
F.2d 697, 699-700 (3rd Cir. 1970) (emphasis added).
See also, Mendoza v. Southern Pacific Transp. Co.,
733 F. 2d 631 (9th Cir. 1984); Hines v. Consolidated
Rail Corp., 926 F.2d 262 (3rd Cir. 1991); Eckert v.
Aliquippa & Southern R. Co., 828 F.2d 183, 187 (3rd.
Cir. 1987) (citing Pehowic's "zero probability" test);
Gans v. Mundy, 762 F.2d 338, 343-44 (3rd Cir. 1985)
(citing Pehowic).
The burden of proof necessary to present a case to
a jury is “significantly lighter under FELA than . . .
in an ordinary negligence case.” Smith v. Soo. Line
R.R. Co., 617 N.W.2d 437, 439 (Minn. Ct. App. 2000)
(citing Habrin v. Burlington Northern Ry. Co., 921
F.2d 129, 132 (7th Cir. 1990)). The quantum of proof
required to present a jury issue is described as a
“scintilla” of evidence. Id. (citing Hauser v. Chicago,
Milwaukee, St. Paul & Pacific R.R. Co., 346 N.W.2d
650, 653 (Minn. 1985)); see also Rogers v. Missouri
Pacific R.R. Co., 352 U.S. 500, 506 (1957) (“the test of
a [FELA] jury case is simply whether the proofs
justify with reason the conclusion that employer
negligence played any part, even the slightest, in
producing the injury or death for which damages are
sought”)(emphasis added).

18
The Second Circuit Court of Appeals has stated
that, “[u]nder the FELA, ‘the case must not be
dismissed at the summary judgment phase unless
there is absolutely no reasonable basis for a jury
to find for the plaintiff.’” Gadsden v. Port Authority
TransHudson Corp., 140 F.3d 207 (2d Cir. 1998),
quoting Syverson v. Consolidated Rail Corporation,
19 F.3d 824, 828 (2d Cir. 1994). As put more
colorfully by the Seventh Circuit Court of Appeals,
numerous cases have affirmed submission of FELA
claims to juries based on evidence “scarcely more
substantial than pigeon bone broth.” Green v. CSX
Trans. Co., 414 F.3d 758, 766 (7th Cir. 2005), quoting
Habin v. Burlington Northern Railroad Co., 921 F.2d
129, 132 (7th Cir. 1990).
The corollary of these principles is that juries play
a significantly greater role in FELA cases than at
common law. Eggert v. Norfolk & Western Railway
Co., 538 F.2d 509 (2nd Cir. 1976), citing, inter alia,
Rogers, supra; Eaton v. Long Island R. Co., 398 F.2d
738, 741 (2d Cir. 1968) (under FELA, juries’ right to
pass upon issues of fault and causality "must be most
liberally viewed."). This is because Congress intended
the FELA to be remedial legislation and under the
Act, and "'trial by jury is part of the remedy."'
Atlantic & Gulf Stevedores, Inc. v. Ellerman Lines,
Ltd., 369 U.S. 355, 360, reh. denied, 369 U.S. 882
(1962), quoted in Eggert, 538F.2d at 511; Boeing Co.
v. Shipman, 411 F.2d 365, 371 (5th Cir. 1969) (“trial
by jury is part of the remedy”) (quoting Atlantic
& Gulf Stevedores, Inc., supra); Baily v. Central
Vermont Ry., 319 U.S. 350, 354 (1943) (right to a
jury trial is “part and parcel of the remedy

19
afforded” under the FELA). To deprive FELA
plaintiffs of the benefit of a jury trial in “close or
doubtful cases” is to “take away a goodly portion of
the relief … Congress has afforded them.” Baily, 319
U.S. at 345.
This Court’s emphasis on the paramount
importance of jury determinations in FELA cases
emerges from a review of FELA cases reaching back
to the 1940’s. In Bailey v. Central Vermont Railroad,
319 U.S. 350 (1943), the plaintiff’s decedent was
killed at work. At the close of all the evidence, the
railroad moved for a directed verdict. The trial court
denied the railroad’s motion and submitted the case
to the jury, which returned a verdict for the plaintiff.
The railroad appealed, and the Supreme Court of
Vermont reversed, holding that the trial court should
have granted the motion for a directed verdict. 319
U.S. at 351-352. This Court granted certiorari and
reviewed the job performed by plaintiff’s decedent,
“the hazards which it entailed, the effort which it
required, the kind of footing he had, the space in
which he could stand, the absence of a guardrail . . .”
and then stated “. . . all these were facts and
circumstances for the jury to weigh and appraise in
determining whether [the railroad] in furnishing
[plaintiff’s decedent] with that particular place in
which to perform the task was negligent.” Bailey,
319 U.S. at 354.
The Court emphasized the
importance of jury determinations in FELA cases:
It [the right to trial by jury] is
part and parcel of the remedy
afforded railroad workers under

20
the Employers’ Liability Act.
Reasonable care and cause and effect
are as elusive here as in other fields.
But the jury has been chosen as the
appropriate tribunal to apply those
standards to the facts of these
personal injuries. . . . To deprive
these workers of the benefit of a
jury trial in close or doubtful
cases is to take away a goodly
portion of the relief which
Congress has afforded them.
Bailey, 319 U.S. at 354 (emphasis added).
The
Court
underscored
the
paramount
importance of jury determinations in FELA cases in
Tennant v. Peoria and Pekin Union Railway Co., 321
U.S. 29 (1944). In Tennant, the plaintiff’s decedent
was killed working in a railroad yard. There was no
direct evidence as to the decedent’s precise location
when he was killed. While there was evidence of
railroad negligence, there was no direct proof that
the railroad’s negligence proximately caused the
decedent’s death. The case was submitted to a jury,
which returned a verdict in favor of the plaintiff. The
railroad appealed, and the appellate court reversed
this judgment, finding that there was no substantial
proof the railroad’s negligence proximately caused
the plaintiff’s death. This Court wrote, “We granted
certiorari [citation omitted] because of important
problems as to petitioner’s right to a jury’s
determination of the issue of causation.” 321
U.S. at 29-30. As to the facts:

21

Petitioner was required to present
probative facts from which the
negligence and the causal relation
could reasonably be inferred. . . If that
requirement is met, as we believe it
was in this case, the issues may
properly be presented to the jury. No
court is then justified in substituting
its conclusion for those of the twelve
jurors.
321 U.S. at 32-33 (emphasis added).
Three years later in Lavender v. Kurn, 327 U.S.
645 (1946), this Court once again reversed a FELA
case where a reviewing court had set aside a
plaintiff’s verdict. In Lavender, the plaintiff’s
decedent was killed at work. The railroad’s evidence
suggested that the plaintiff’s decedent had been
murdered or that the accident could not have
happened as the plaintiff’s decedent claimed. The
jury returned a plaintiff’s verdict, the railroad
appealed, and the Supreme Court of Missouri
reversed the judgment “. . . holding that there was no
substantial evidence of negligence to support the
submission of the case to the jury.” 327 U.S. at 647.
Once again, this Court reviewed the trial court
record and admonished the lower court for
permitting a railroad defendant to re-litigate the
underlying factual dispute on appeal. The Court
wrote:

22
But such evidence has become
irrelevant upon appeal, there being a
reasonable basis in the record for
inferring that the hook struck Haney.
The jury having made that inference,
the respondents were not free to
relitigate the factual dispute in a
reviewing
court.
Under
these
circumstances it would be an undue
invasion of the jury’s historic
function for an appellate court to
weigh the conflicting evidence,
judge the credibility of witnesses
and arrive at a conclusion
opposite from the one reached by
the jury. . . . Only when there is a
complete absence of probative facts to
support the conclusion reached does a
reversible error appear. But where,
as here, there is an evidentiary
basis for the jury’s verdict, the
jury is free to discard or
disbelieve whatever facts are
inconsistent with its conclusion.
And the appellate court’s function is
exhausted when that evidentiary basis
becomes apparent, it being immaterial
that the court might draw a contrary
inference or feel that another
conclusion is more reasonable.
327 U.S. at 652, 653 (emphasis added).

23
In 1963 the Court once more granted certiorari in
a FELA case to reverse an appellate court that had
improperly usurped the jury’s fact-finding function.
In Gallick v. Baltimore and Ohio Railroad Co., 372
U.S. 108 (1963), a bug bit a railroad worker who was
working near a stagnant pool of water on a railroad’s
right of way. The wound became infected and
eventually the worker’s legs were amputated. The
railroad worker’s doctors characterized the plaintiff’s
condition as “secondary to insect bite.” The railroad
moved for a directed verdict, which the trial judge
denied. The jury found for the railroad worker.
On appeal, the Ohio Court of Appeals deemed the
evidence nothing but “a series of guesses and
speculations . . . a chain of causation too tenuous to
support a conclusion of liability” and reversed the
trial court’s judgment. 372 U.S. at 112-113. The
Supreme Court began its review with a pointed
chastisement of the appellate court:
We think that the Court of Appeals
improperly invaded the function
and province of the jury in this
Federal Employers’ Liability Act
Case. . . We hold that the record
shows sufficient evidence to warrant
the jury’s conclusion that petitioner’s
injuries were caused by the acts or
omissions of respondent.
372 U.S. at 113 (emphasis added).

24
The Court used Gallick to again admonish trial
and appellate courts tempted to disregard jury
determinations in FELA cases. The Court began its
review by examining Tennant v. Peoria, supra, which
the Court labeled as, “one of the leading cases”
regarding a railroad worker’s right to a jury
determination on the issue of causation. 372 U.S. at
114. The Supreme Court then re-affirmed Tennant’s
central holding:
It is the jury, not the court, which
is the fact-finding body. It weighs
the
contradictory
evidence
and
inferences, judges the credibility of
witnesses,
receives
expert
instructions, and draws the ultimate
conclusions as to the facts . . . That
conclusion, whether it relates to
negligence, causation or any other
factual matter, cannot be ignored.
Courts are not free to re-weigh the
evidence and set aside the jury verdict
merely because the jury could have
drawn
different
inferences
or
conclusions or because judges feel that
other results are more reasonable.
372 U.S. at 115, citing Tennant, 321 U.S. at 35.
After reviewing other similar holdings, the Supreme
Court found the court of appeals to have, “erred in
depriving petitioner of the judgment entered upon
the special verdict of the jury.” 372 U.S. at 122.

25
From Tennant to Bailey to Lavender to Gallick,
this Court has steadfastly proclaimed the paramount
importance of jury determinations in FELA cases.
The jury – not the trial judge, and not an appellate
court – is to be the fact-finding body.
Here, the trial court overstepped its authority and
failed to follow this Court’s precedent. By ignoring all
evidence of wrongdoing, including evidence that
Miller had never been taught this procedure for
coupling, the trial court impermissibly invaded the
province of the jury. The trial court failed to take into
account the significantly lower standards set out by
this Court and erred in granting summary judgment
based solely on Miller’s failure to use 3-step
protection. While this may have been evidence of
contributory negligence, it did not rise to the
incredibly high burden necessary to remove a FELA
case from the determination of a jury.
Although more completely rationalized, the Court
of Appeals for the Fifth Circuit made the same fatal
error as the district court when it failed to take into
account this Court’s previous opinions in FELA cases
and utilize the lower causation standards required
by FELA cases. In particular, the Fifth Circuit
inserted its own interpretation of a single section of
Sillimon’s deposition to read facts into the record
that simply did not exist. No where in the deposition
excerpt cited by the court did Sillimon say or indicate
that Miller had engaged in this coupling procedure
earlier in the evening on the night of his injury.
Without that testimony, the court’s reasoning lays
contrary to Tennant, Bailey, Lavender, and Gallick.

26
By its own opinion, “failure of others to explain what

was occurring could have left him unaware of just
how dangerous his actions would be.” This is made
even more clear when comparing with Judge Dennis’
dissent where he found no evidence that Miller had
been exposed to this procedure and that “[a] jury

could infer that Miller, because of his inexperience
and lack of schooling, instruction and training,
would have expected the next coupling to be a
single-car coupling as well, after which the train
would stop moving.”

Here, the facts are undisputed that there were
several acts that lead to the tragic event that caused
the death of Gregory Miller. It is undisputed that Mr.
Miller was a trainee of less than 50 days with no
prior railroad experience. It is undisputed that Mr.
Miller had only been trained by the railroad on one
way to conduct a shoving and coupling movement. It
is undisputed that the railroad trained Mr. Miller
and only provided him written materials for the
procedure for coupling a single railcar at a time. It is
undisputed that prior to the night of Mr. Miller’s
death, he had not been taught the term “bunch” or
rolling coupling. Instead, the only process that Mr.
Miller was taught was for the engineer to couple to
the first railcar, stop the movement, and the crew
members go between the cars to finalize the
coupling. It is undisputed that Sillimon, Henderson,
and Clearman failed to conduct a job briefing that
informed Mr. Miller that they intended to conduct a
rolling couple and failed to explain what the term
“bunch” meant. It is undisputed that at the time of
the movement, neither Sillimon, Henderson, nor

27
Clearman had visual contact of Mr. Miller or knew
exactly where he was. It is undisputed that
Henderson could not see the coupling that was made
that killed Miller. This evidence in and of itself is
evidence that Henderson, and by extension Alabama
Great Southern violated not only its own operating
rules, but more importantly, violated the Federal
Railroad Safety Act 49 C.F.R. § 218.99 which
provides standards for railroad operating practices
for shoving or pushing movements. Specifically, 49
CFR § 218.99 (b)(3) states in part that “… point
protection shall be provided by a crewmember or
other qualified employee by: (i) visually determining
that the track is clear.” No point protection was
present in this case. It is uncontested that
Henderson admitted that he could not see the
coupling where Miller was killed. He stated that he
turned south and saw a flash and that he had to
walk down the cars to the position of the coupling,
where he saw Miller trapped between the cars. This
is a clear violation of 49 C.F.R. § 218.99 as he could
not “visually determine that the track was clear” at
the point of the coupling.
The FELA is a pure comparative fault statute
where an employee’s contributory negligence does
not bar recovery, but only reduces damages by the
percentage of their fault. Caillouette v. Baltimore &
Ohio Chicago Terminal R.R. Co., 705 F2d 243, 246
(7th Cir. 1983) (citing 45 U.S.C. § 53). Even if the
plaintiff is 99% at fault for his own injuries and the
railroad 1%, the FELA requires that a case go to a
jury and the plaintiff be awarded 1% of the damages
awarded by the jury. But to prevail as a matter of

28
law, the evidence, and all inferences, weighed
against Alabama Great Southern must establish that
Miller’s alleged negligent conduct did not combine
with Alabama Great Southern’s negligent conduct.
See McCarthy v. Pennsylvania R.R. Co., 156 F.2d
877, 881 (7th Cir. 1946) (holding sole cause not
established where the employee’s “acts were all
concurring acts with the act of the defendant in
violation of the statute”). Along
with
a
pure
comparative fault system, the Supreme Court has
long recognized that in FELA death cases, when the
plaintiff has no opportunity to explain his side of the
facts, there is a presumption that a deceased plaintiff
exercised due care for his own safety in the
performance of his duties. Tennant v. Peoria P.U. Ry.
Co, 321 U.S. 29, 34 (1944); A., T. S.F. Ry. Co. v.
Toops, 281 U.S. 351, 356 (1930); Bailey, 319 U.S. 350;
Gallick, 372 U.S. 108 (1963).
Whether any of the multitude of negligent acts or
omissions on the part of Alabama Great Southern
caused Miller’s injury is a question reserved for the
jury under the FELA. See Padgett v. Southern Ry.
Co., 396 F.2d 303, 307 (6th Cir. 1968) (even if some
minds might conclude that it was the sole factor, the
jury may consider evidence that employer negligence
played some part in producing the injury.) This
Court has made it clear that any negligence, even the
slightest, is enough to send a case to the jury. The
district court erred in deciding a question of fact
reserved for the jury, and the Circuit Court failed to
utilize these standards and improperly affirmed
summary judgment in this case. The Panel
impermissibly inserted its own understanding and

29
factual determination of meaning of Sillimon’s
deposition testimony and in so doing, weighed the
evidence in favor of Alabama Great Southern, which
is contrary to the court’s role. See e.g., Thrasher v.
B&B Chem. Co., Inc., 2 F.3d 995, 97 (10th Cir. 1993)
(noting that [i]t is not “the court’s function . . . to
weigh the evidence and determine the truth, but to
determine whether there is a genuine issue for trial”)
(citation omitted).
This Court has stated with unequivocal certainty
that under FELA, whenever a railroad employee is
injured in the course of duty and there is any
evidentiary basis upon which reasonable minds could
believe that reasonable care might have required
additional safety measures which were not taken,
and which contributed in whole or in part, however
slight, to cause the injury, the case should be tried to
a jury. Tiller v. Atlantic Coast Line R.R. Co., 318 U.S.
54, 63 S.Ct. 444, 87 L.Ed. 610 (1943); Lavender v.
Kurn, 327 U.S. 645, 66 S.Ct. 740, 90 L.Ed. 916
(1946); and see the case of Jacob v. City of New York,
315 U.S. 752, 62 S.Ct. 854, 86 L.Ed. 1166 (1942),
wherein Mr. Justice Murphy speaking for the court
stated: "The right of jury trial in civil cases at
common law is a basic and fundamental feature of
our system of federal jurisprudence which is
protected by the Seventh Amendment. A right so
fundamental and sacred to the citizen, whether
guaranteed by the Constitution or provided by
statute, should be jealously guarded by the courts."
To allow this case to stand would bring instability
and confusion into long standing FELA precedent.

30
This Court has been clear that FELA cases are to be
decided by a jury and only in the most unusual of
circumstances should a FELA case be taken away
from that jury.

Respectfully submitted,
__________________________
C. E. Sorey, II
Counsel of Record
James R. Ferguson
Law Office of H. Chris Christy
1000 Highland Colony Parkway,
Ste. 5203
Ridgeland, MS 39157
Telephone: (601) 341-6929
eddysorey@gmail.com
James Robert Sullivan, Sr.
Sullivan, Sullivan & Thompson,
PLLC
P.O. Box 1131
Laurel, MS 39441-0045
Telephone: (601) 428-1505
Counsel for Petitioners

APPENDIX

1a
Appendix A
APPENDIX A – ORDER DENYING PETITION
FOR REHEARING EN BANC – FILED JULY 16,
2020
IN THE UNITED STATES COUR OF APPEALS
FOR THE FIFTH CIRCUIT
_________________
No. 17-60817
_________________
D. C. Docket No. 2:16-CV-25
SHAQUERE MYLESHIA GRAY, CoAdministratrix of the Estate of Gregory
Tramaine Miller; HANNAH LASHA HOZE, CoAdministratrix of the Estate of Gregory
Tramaine Miller,
Plaintiffs - Appellants
v.
THE ALABAMA GREAT SOUTHERN
RAILROAD COMPANY,
Defendant – Appellee

Appeal from the United States District Court for the
Southern District of Mississippi
ON PETITION FOR REHEARING EN BANC
(Opinion 05/28/2020. 5 Cir. 960 F.3d 212)

2a
Appendix A
Before OWEN, Chief Judge, and Dennis and
Southwick, Circuit Judges.
PER CURIAM:
Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the court
having requested that he court by polled on
Rehearing En Banc (FED. R. APP. P. and 5th CIR.
R. 35), the Petition for Rehearing En Banc is
Denied.
ENTERED FOR THE COURT:
__/s/ Leslie H. Southwick_____
UNITED STATES CIRCUIT JUDGE

3a
Appendix B
APPENDIX B – JUDGMENT OF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT – FILED MAY 28, 2020
IN THE UNITED STATES COUR OF APPEALS
FOR THE FIFTH CIRCUIT
_________________
No. 17-60817
_________________
D. C. Docket No. 2:16-CV-25
SHAQUERE MYLESHIA GRAY, CoAdministratrix of the Estate of Gregory
Tramaine Miller; HANNAH LASHA HOZE, CoAdministratrix of the Estate of Gregory
Tramaine Miller,
Plaintiffs - Appellants
v.
THE ALABAMA GREAT SOUTHERN
RAILROAD COMPANY,
Defendant – Appellee

Appeal from the United States District Court for the
Southern District of Mississippi
Before OWEN, Chief Judge, and DENNIS and
SOUTHWICK, Circuit Judges.

4a
Appendix B
JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that appellants
pay to appellee the costs on appeal to be taxed by
the Clerk of this Court.

Certified as a true copy and issued
as the mandate on Jul 24, 2020
Attest:
Clerk, U.S. Court of Appeals, Fifth

5a
Appendix C
APPENDIX C – MEMORANDUM ORDER OF
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT; FILED MAY 28, 2020
IN THE UNITED STATES COUR OF APPEALS
FOR THE FIFTH CIRCUIT
_________________
No. 17-60817
_________________
D. C. Docket No. 2:16-CV-25
SHAQUERE MYLESHIA GRAY, CoAdministratrix of the Estate of Gregory
Tramaine Miller; HANNAH LASHA HOZE, CoAdministratrix of the Estate of Gregory
Tramaine Miller,
Plaintiffs - Appellants
v.
THE ALABAMA GREAT SOUTHERN
RAILROAD COMPANY,
Defendant – Appellee
----------------------------------------Appeal from the United States District Court for the
Southern District of Mississippi
___________________________
Before OWEN, Chief Judge, and DENNIS and
SOUTHWICK, Circuit Judges. LESLIE H.
SOUTHWICK, Circuit Judge:

6a
Appendix C

Gregory Tramaine Miller was crushed to death
between the couplers of two rail cars while working as a
conductor trainee with Alabama Great Southern Railroad
Company. Summary judgment dismissing all claims was
granted on the basis that there was no evidence to support
imposing any liability on the railroad. The administrators
of Miller's estate argue on appeal that there was evidence
to create a jury issue. We AFFIRM.
FACTUAL AND PROCEDURAL BACKGROUND
On August 12, 2015, Gregory Miller was
assigned to an Alabama Great Southern train crew
consisting of a conductor, M.A. Sillimon; a
brakeman, J.D. Henderson; and an engineer, A.C.
Clearman. Miller rode the train to a facility in
Petal, Mississippi, in order to couple empty rail cars
that would then be taken to a different facility.
Miller rode on one side of the train to the Petal
facility. Upon arrival, he safely crossed over the
tracks on foot to the other side of the train, using a
safety procedure called "3-Step Protection" for
crossing between standing rail cars.
The Alabama Great Southern is a wholly owned
subsidiary of the Norfolk Southern Railway
Company. Each company uses the same
Operating Rules and Safety & General Conduct
Rules. Operating Rule 22 prohibits an employee
from going between standing equipment on the
tracks for any reason unless 3-Step Protection is
first established.
Going between moving
equipment on the tracks is never permitted. To
establish 3-Step Protection, an employee must

7a
Appendix C
first orally request passage between cars from
the engineer. If the request is made via radio, the
employee must provide his or her occupation, job
symbol, and engine number. Once such a request
is made, the second step is for the engineer to
take the following action: "apply the independent
brake"; next, "[p]lace the reverser lever in
neutral position"; and finally, "[o]pen the
generator field switch." Third, before the
employee is permitted to go between equipment
on the tracks, the engineer "must acknowledge to
each requesting employee that '3-Step Protection'
is established."
After Miller successfully established 3-Step
Protection and crossed the tracks to the other side of
the train, the train crew began to couple 11 rail cars.
At the start, each rail car was approximately ten feet
from the next one. The crew's train coupled the first
uncoupled car waiting on the switch track, and the
train was brought to a safety stop to ensure that
coupling was successful.
After the first coupling, Henderson was
positioned at the north end of the line of cars and
Sillimon was at the south end. Miller was about
one-half of a car length south of Henderson, who
was supervising Miller that night. Henderson,
while facing north toward the train coupled to the
engine and away from Miller, radioed the crew,
"Everybody let me get big half to a bunch,"
meaning that the engineer should begin a
"rolling coupling'' of the remaining ten rail cars
by slowly shoving the train south at a speed never
exceeding two miles per hour, impacting and

8a
Appendix C
coupling each car, one right after the other,
without stopping.
As the train approached, Henderson walked
backward while facing north toward the train to
give "full attention on the engine coming down,"
then started to turn south to observe the
couplings. At this time, for reasons unknown and
without 3-Step Protection, Miller went between
two rail cars during the rolling coupling.
Henderson testified that as he was turning to the
south, he noticed a "flash" and told Clearman to
cease coupling by radioing, "That will do."
Henderson could not see Miller, so he began
walking south and found Miller fatally injured,
caught in the coupling between two rail cars, the
second of three couplings made during the shove.
As co-administrators of Miller's estate,
Shaquere Myleshia Gray and Hannah Lasha
Hoze filed suit against the Alabama Great
Southern Railroad Company. They claimed the
railroad was negligent in failing to train, instruct,
and supervise Miller, that the railroad also was
negligent in failing to provide a safe place to work
for Miller, and that it was foreseeable that Miller
would go between rail cars, which was the cause
of his death.
In granting summary judgment for the
railroad, the district court concluded that Miller's
failure to establish 3-Step Protection before going
between rail cars was the sole cause of his death,
that his going between moving rail cars was
unforeseeable, and that the plaintiffs failed to

9a
Appendix C
produce evidence of any negligent acts by the
railroad attributable to causing Miller’s death.
This timely appeal followed.
DISCUSSION
The suit was brought under the Federal Employers
Liability Act (“FELA”), 45 U.S.C. § 51. The FELA
provides the exclusive remedy for a railroad employee
engaged in interstate commerce whose injury resulted
from the negligence of the railroad. Rivera v. Union
Pac. R.R. Co., 378 F.3d 502, 507 (5th Cir. 2004). The
FELA allows an injured railroad employee to recover
damages for “injury or death resulting in whole or in
part from the negligence" of the railroad. § 51.
''Under FELA the test of a jury case is simply
whether the proofs justify with reason the
conclusion that employer negligence played any
part, even the slightest, in producing the injury or
death for which damages are sought." CSX Transp.,
Inc., v. McBride, 564 U.S. 685,692 (2011). This
standard leaves in place, though, the plaintiff's
burden to provide evidence of "all the same
elements as are found in a common law negligence
action." Armstrong v. Kansas City S. Ry. Co., 752
F.2d 1110, 1113 (5th Cir. 1985). Indeed,
"foreseeability is an essential ingredient of
negligence under the Act." Id.
The FELA eliminated a variety of traditional
defenses, such as the fellow-servant rule, the
assumption-of-the-risk defense, and the doctrine
of contributory negligence. Consolidated Rail
Corp. v. Gottshall, 512 U.S. 532, 542-43 (1994); 45
U.S.C. §§ 51, 53-55. Even so, if a plaintiff's

10a
Appendix C
negligence is the sole cause of the injury, a
defendant has no liability under the Act.
Southern Ry. Co. v. Youngblood, 286 U.S. 313,
317 (1932).
We review a grant of summary judgment de
novo, meaning this court considers the evidence
and law in the same manner as the district court
was required to do. Ibarra v. UPS, 695 F.3d 354,
355 (5th Cir. 2012). Summary judgment is
appropriate if the movant demonstrates "there is
no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of
law." FED. R. CIV. P. 56(a). Under the FELA,
awarding summary judgment to the defendant
railroad is appropriate "[o]nly when there is a
complete absence of probative facts" to support a
jury verdict in the plaintiff’s favor. See Lavender
v. Kurn, 327 U.S. 645, 653 (1946). "This standard is
highly favorable to the plaintiff and recognizes
that the FELA is protective of the plaintiffs right
to a jury trial." Wooden v. Mo. Pac. R.R. Co., 862
F.2d 560, 561 (5th Cir. 1989) (punctuation
edited).
The plaintiffs argue that Miller's failure to
establish 3-Step Protection was not the sole cause
of his death because the railroad's negligence
must also have had a role in the accident. They
contend that there was "overwhelming evidence"
of at least some negligence by the railroad.
Among their arguments is that Henderson
negligently supervised Miller. There was
evidence
that
the
railroad
used
a
supervisor/trainee system for on-the-job training.

11a
Appendix C
On the night of the accident, Henderson was
Miller's supervisor. Although Henderson was
working as a brakeman that night, he was a
certified conductor, making it appropriate for
him to supervise a conductor trainee. The
plaintiffs say that Henderson was negligent
because "a mentor should know where his mentee
is at all times as he is in charge of ensuring the
mentee's safety." At the time of the incident,
though, ''Henderson had his back to Mr. Miller,
did not know where he was, and did not know
what Mr. Miller was doing at any point while the
shoving movement was occurring." The plaintiffs
also argue that Henderson violated the railroad's
procedure by failing "to observe the coupling that
was occurring when Mr. Miller was injured."
There is no record evidence of any policy
requiring that a supervisor never stop looking at
a conductor-trainee. Plaintiffs say such evidence
does exist, as Silliman in his deposition testified
that a trainee should always be "within eyesight"
of the supervisor. We do not interpret that
testimony as supporting that the supervisor
cannot as necessary look a different direction
than the trainee during performance of the job.
Instead, the supervisor must always be in a
position to "keep an eye" on the trainee, meaning
no obstruction to the view, even though at times
the supervisor must concentrate on other tasks.
The plaintiffs agree that Henderson was required
to observe the couplings, which means he would
have had to take his eyes off Miller during the
first coupling, apparently just before Miller went
between the second set of rail cars.

12a
Appendix C

The only evidence as to rules for coupling is
testimony vaguely describing a conductor and
brakeman's duty of "observing a coupling." We
know from the record that Henderson was in the
process of turning to observe a coupling when he
saw a "flash," which was Miller's going between the
rail cars. Henderson radioed Clearman to stop the
train. Having considered plaintiffs' contentions to
the contrary, we conclude there was no evidence
that Henderson violated any procedure that played
a part in Miller's death.
The plaintiffs also contend that the railroad
negligently trained Miller because he "was never
trained on the procedures of a rolling couple and
the only evidence in the record suggests that he
had never heard of such a move." The plaintiffs
also argue the failure of Miller's crew members to
"adequately job brief this procedure ... played a
central role in bringing about this injury." Thus,
according to the plaintiffs, "[t]here is no evidence
in the record to show that Mr. Miller had any
reason to believe that the cars would continue to
move or that he would be in danger if he needed
to get between cars."
The plaintiffs' point is that if Miller had not been
made aware of rolling couplings, then his
undisputed knowledge of the procedures to be
followed prior to going between cars would, at the
time of his fatal violation of those procedures, have
been joined by his ignorance that the cars would
keep moving after the initial coupling. Certainly,
it was negligent for Miller to have gone between

13a
Appendix C
the cars, but a failure of others to explain what
was occurring could have left him unaware of just
how dangerous his actions would be. The only
evidence of a source for Miller's knowledge was
not identified by the railroad until oral argument
in this court. We may, but are not required, to
consider this evidence despite its late
identification because we may affirm a judgment
on any ground that appears in the record. S&W
Enters., L.L.C. v. SouthTrust Bank of Ala., NA,
315 F.3d 533, 537 (5th Cir. 2003). We discuss the
evidence.
The evidence comes from Sillimon's deposition.
The dissent does not see that testimony in quite
the same way we do, viewing it as a possibly
generic description of how the work should be
done as opposed to what was done that night. We
will summarize the immediately preceding
testimony, then quote at some length the relevant
statements. Sillimon was asked about the
coupling that had been completed by this same
crew at other locations earlier on the night of
Miller's death. He mentioned the first location
but did not explicitly describe any rolling coupling
there. The railroad's counsel then asked Sillimon
to describe what happened at the second location,
which still was not the job site where Miller was
fatally injured that same day:
Q: All right. And how many cars did y'all work
that night [at the second location]? Do you know?
A: It was 20 -- it was 20 in, 20 out.
Q. Okay. And y'all have to spot all 20 of them?
A. That's correct.

14a
Appendix C
Q. And how do y'all go about spotting these
cars? How do y'all handle that?
A. You spot each car up one at a time.
Q. Okay. And take me through what you would
do as the conductor, what the brakeman would do,
and what the engineer would do in spotting these
cars.
A. As far as the brakeman and the conductor, it can
go either or.
Q. Okay.
A. I can walk down and do a C-100 [which he would
later describe as checking each car prior to starting
the coupling] and check everything, make sure the
hoses are -- make sure there’s no one in the tracks,
make sure the hoses are down, make sure any chocks
or anything that we couple up to -- so it won’t derail
anything. Or the brakeman can walk down and do a
C-100. And after we do a C-100, I’ll be in position at
the bottom. The brakeman be in position at the top.
He will make the first coupling, and the rest of the
couplings be run-in coupling.
Q. And you refer to that as a running couple?
A. That’s correct.
Q. And what -- what is a running couple?
A. When you couple up to the -- you got to make
sure you coupled up to the first car. Once you coupled
up to the first car, you bunch to the next car. Then you
bunch and then you bunch until you get to the last two
cars. You stop the move. You couple up to that second
to the last car, and then you couple up to the next car.
In summary, Silliman started by saying it was
necessary to “spot all 20” cars at the earlier location.
He then asked how the crew would accomplish that
spotting. Certainly, some of his lengthy answer could

15a
Appendix C
be taken as a general description of how the tasks are
done, particularly in stating that either the brakeman
or the conductor could perform certain of the
functions. The key to us, though, is that Sillimon
testified that a series of rolling couplings had to be
made at the job site preceding the one where Miller
was fatally injured. Perhaps there were shortcomings
in initial training or otherwise in making Miller aware
of the dangers of a rolling coupling, specifically that
the train keeps moving as the closely spaced but not
yet coupled cars are sequentially linked. Regardless of
that possibility, Silliman testified that Miller had just
experienced that sort of coupling.
The plaintiffs also argue that it is a fact
dispute whether Miller requested 3-Step
Protection.
They
discuss
evidence
that
requesting over the radio is not always heard.
There is a protection for that built into the three
steps, though, i.e., the requesting employee must
wait for the engineer to "acknowledge to each
requesting employee that '3-Step Protection' is
established." It is undisputed that Sillimon did
not acknowledge 3-Step Protection to any
employee during the time Miller went between
the rail cars and suffered his fatal injuries.
Last, the plaintiffs contend that "[i]t is wholly
foreseeable that an employee will get between
cars during the course of his work, especially when
as here he is expecting the movement to stop for
some period of time." They rely on a Supreme
Court decision in which the decedent stepped
between standing rail cars to detach a damaged
car. Chicago Great W. R.R. v. Schendel, 267 U.S.

16a
Appendix C
287, 289 (1925). There, the rail cars sat on a
downward grade and gravity caused the rail car
to slide into the decedent, fatally injuring him.
Id. The Court held that although the decedent
was partially negligent, the railroad was liable
because there was evidence that the damaged
rail car did not meet the statutory requirements
to protect him, and that damage was the reason
he had stepped between the cars. Id. at 292.
Unlike in Schendel, though, Miller was killed
during continuous coupling of cars, a process he
had just witnessed elsewhere, and during a time
in which he knew not to cross between cars
without following the described protocols. In
some circumstances it of course is foreseeable
that railroad employees will get between cars. In
the circumstances here, stepping between cars
was prohibited and the reasons for the
prohibition would have been clear.
Finally, we consider whether plaintiffs are
correct that the district court improperly relied at
least in part on a finding that Miller assumed the
risk of injury by stepping between the cars. As we
stated, the FELA abolished assumption of the risk
and similar defenses. See Gottshall, 512 U.S. at
54243. According to the plaintiffs, the district court's
reliance on the fact that Miller knew how to
utilize 3-Step Protection based on training and
experience means that it concluded that Miller
assumed the risk of ignoring that protocol. We see
no application of this discarded defense by the
district court. Though the district court
mentioned that Miller was trained and tested on

17a
Appendix C
the safety procedure before he went to field
training, the court was merely explaining
Miller's negligence. The district court stated
that the plaintiffs ''ha[d] not produced evidence of
any negligent acts attributable to [the railroad]
that caused the accident." Gray, 2017 WL
6805046, at *3. That is a reference to a lack of
evidence, not to an assumption of risk.
"If the employee's negligence was the sole
proximate cause of his injury, he cannot recover."
Atlantic Coast Line R. Co. v. Dixon, 189 F.2d 525,
527 (5th Cir. 1951). Though there is a lack of
clarity as to exactly what happened, Miller,
unfortunately, negligently went between the two
cars. In the absence of any evidence to support a
jury finding that some negligence on the part of
the railroad contributed to the accident,
summary judgment was proper.
AFFIRMED.
JAMES L. DENNIS, Circuit Judge,
dissenting.
I respectfully dissent. In my view, the record
contains evidence from which a reasonable jury
could find that Miller's death resulted at least in
part from AGS's negligence: Miller was a new hire
of about forty-five days with no prior railroad
experience, and he had not been schooled, trained,
or instructed in the multi-car rolling coupling
procedure that resulted in his death. Miller,
therefore, may not have understood that more than
a single car would be coupled, and Henderson, the

18a
Appendix C
brakeman responsible for Miller's supervision,
failed to keep Miller close to him and within his
eyesight during the rolling coupling. A reasonable
jury could thus infer that the railroad's negligence
played a part, even the slightest, in producing the
injury or death for which damages are sought, such
that this case should proceed to a jury trial.
I.
FELA prescribes that:
Every common carrier by railroad . . . shall be
liable in damages to any person suffering injury
while he is employed by such carrier . . . for such
injury or death resulting in whole or in part from
the negligence of any of the officers, agents, or
employees of such earner ....
45 U.S.C. § 51 (emphasis added). Congress enacted
FELA in response to the dangers inherent in
working on the railroad, and its language on
causation "is as broad as could be framed." Urie v.
Thompson, 337 U.S. 163, 181 (1949); see
Consolidated Rail Corp. v. Gottshall, 512 U.S. 532,
542-43 (1994). The Supreme Court has recognized
that "in comparison to tort litigation at common law,
'a relaxed standard of causation applies under
FELA."' CSX Transportation, Inc., v. McBride, 564
U.S. 685, 692 (2011) (quoting Gottshall, 512 U.S. at
542-43). "Under FELA the test of a jury case is
simply whether the proofs justify with reason the
conclusion that employer negligence played any part,
even the slightest, in producing the injury or death for
which damages are sought." Id. (emphasis added)
(quoting Rogers v. Missouri Pac. R. Co., 352 U.S.
500, 506 (1957)).

19a
Appendix C

We review a district court's grant of summary
judgment for the railroad de novo, and "we must
resolve all ambiguities, permissible inferences,
and material issues of fact in favor of the nonmoving parties." Total E & P USA Inc. v. KerrMcGee Oil & Gas Corp., 719 F.3d 424, 429 (5th Cir.
2013). In a FELA case, it is the province of the
jury to weigh many factors, including the nature
of the task and the hazards it entails, in
determining whether employer fault "played any
part, even the slightest," in the employee's injury.
McBride, 564 U.S. at 692; see Bailey v. Central Vt.
Ry., 319 U.S. 350, 353-54 (1943).
The majority concludes that Plaintiffs have not
produced evidence of any negligent acts
attributable to AGS that caused the accident and
that Miller's negligence in going between the
moving rail cars was not foreseeable. I disagree.
Plaintiffs point to several acts or omissions by AGS
and its employees that a reasonable jury could find
were negligent and "played [a] part, even the
slightest, in producing'' Miller's death. McBride,
564 U.S. at 692.
First, the record reveals that Miller had been
employed in railroad work only forty-five days at
the time of his death, and though he attended a
classroom training center in Georgia for nineteen
days, the center did not instruct conductor
trainees like Miller on rolling couplings, the
procedure the crew employed at the time Miller
was killed. The written rules and guidance
provided to Miller as a conductor trainee also did

20a
Appendix C
not describe the rolling coupling procedure. In
the classroom, trainees were taught a different
procedure for coupling a single railcar-the
engineer slowly drives the train until it makes
the connection with the car being coupled, the
engineer stops the train, and the crew members
go between the cars to finalize the coupling. Crew
members then walk to the next rail car on the
track to prepare for the next coupling. In
practice, however, AGS employees also used a
"rolling coupling'' procedure to couple more than
a single rail car at a time, the procedure that the
crew utilized at the time Miller was killed. When
executing a rolling coupling, the engineer stops
once after the first standing car is coupled to the
train, then, when signaled, he shoves the train at
walking speed, impacting and coupling each
remaining uncoupled car, one right after the
other, without stopping until the next to last
standing uncoupled car is coupled. Once the
second to last rail car is coupled, the train stops
briefly, then the engineer drives the train into
the last car until it is coupled. Then the crew
makes sure that all couplings are secure,
connects the air hoses between the cars, and cuts
the air in to the now-coupled cars.
Though the trainees were taught the rules
prohibiting employees from going between
moving railcars and that they must request 3Step Protection before moving between standing
cars on a track, 1 they were not specifically
Another rule explains that employees must not cross tracks
''between standing separated cars or locomotives unless the
1

21a
Appendix C
trained or given any written or oral instruction
on how the rules applied to rolling couplings of a
''bunch" of cars or the additional dangers inherent
in the rolling coupling of as many as nine to ten
cars without stopping between individual
couplings. A reasonable jury could conclude that
the railroad was negligent in failing to provide
Miller with basic training in rolling couplings
before he was required to participate in such a
dangerous procedure in his work.
Second, a reasonable jury could find that, as
in his classroom training, Miller was not
instructed during his on-the-job training as to how
to participate in a rolling coupling, nor was he
provided notice that the crew was going to
perform a rolling coupling prior to the crew
activating that dangerous procedure in which he was
killed. For the on-the-job stage of their training, conductor
trainees like Miller were assigned to a variety of jobs for a
little over three months, with different crews and
conductors in charge of each job. During the job briefing on
the night of the accident, Sillimon, the senior conductor and
leader of the crew, did not provide Miller with any
information or instruction about rolling couplings or tell
him that the crew would use a rolling coupling at any
location, and no one mentioned Miller's lack of experience
or instructed him as to what he was expected to do or was
responsible for during a rolling coupling. As noted in
equipment is separated by at least 50 feet and the employee
maintains at least 10 feet of separation between themselves and
the nearest equipment." Three-step protection is required
where, as here, "a locomotive is coupled to standing equipment
or is on the same track in a position to couple to the equipment."

22a
Appendix C
AGS's expert's report, at the worksite where Miller was
killed, the crew first used a single car coupling to connect
the first uncoupled standing car on the track to the rest of
the train--once the first car was connected, the train
stopped. A jury could infer that Miller, because of his
inexperience and lack of schooling, instruction and
training, would have expected the next coupling to be a
single-car coupling as well, after which the train would stop
moving. However, Henderson called for a rolling coupling,
saying, "Everybody let me get a big half to a bunch," a
phrase that would inform only knowledgeable workersthose familiar with a rolling coupling and the terminology
used to call for one--that Henderson was calling for a
rolling coupling of as many as ten cars. It is undisputed that
this jargon was not taught in the rulebook or classroom
training and is instead something that employees must pick
up on from their work in the field. From the facts in the
record, a jury could find that Miller, who had been out of
the classroom for less than a month, did not know what
Henderson's instruction meant, and therefore had no reason
to understand that the train would not stop after another
coupling, but would continue rolling, impacting and
coupling cars up to the point where he was killed. A jury
could conclude these failures by the railroad and by Miller's
supervisors were also negligent.
Moreover,
Plaintiffs
have
consistently
contended that Miller did not know what a
rolling coupling was, had not been informed that
the maneuver would be used at the work site, and
was only familiar with the standard single­ car
coupling procedure. AGS did not dispute any of
these facts in the district court or in its brief to
this court. At oral argument before this court,
however, counsel for AGS cited to Sillimon's

23a
Appendix C
deposition and contended that it showed Miller
had been exposed to a rolling coupling earlier on
the night that he was killed.
I disagree with the defense counsel's oral
argument and the majority's contention that
Sillimon's deposition testimony provides conclusive
evidence that Miller had previously witnesses a
rolling coupling earlier on the night he was killed.
Maj. Op. at 7-9. At the start of the relevant portion
of the deposition, Sillimon was answering questions
about a job the crew worked the night of the
accident. He was then asked: "And how do y'all go
about spotting these cars? How do y'all handle
that?" After an explanation of what the brakeman
and conductors typically do, Sillimon concluded:
"He will make the first coupling, and the rest of the
couplings be run-in coupling." Sillimon then
explained in general the process of a running or
rolling coupling.
The pretrial deposition does not specify that
Sillimon, in speaking of rolling couplings, was
describing the process employed by the crew at a
different facility earlier on the night of the
accident instead of simply describing the process
of a rolling coupling generally. Given the
ambiguity of the testimony and our obligation to
resolve such ambiguity in Miller's favor, I would
conclude that there is at least a genuine issue of
material fact as to whether Miller had seen a
rolling coupling earlier in the evening on the night
of the accident. See Total E & P USA Inc., 719 F.3d
at 429 ("[l]n reviewing the summary judgment de
novo, we must resolve all ambiguities, permissible

24a
Appendix C
inferences, and material issues of fact in favor of
the non-moving parties ....").
Finally, Plaintiffs have presented evidence in
opposition to AGS's motion for summary judgment
that AGS employees failed to reasonably mentor
or supervise Miller. Though Sillimon was the
senior conductor and Henderson had only eight
months of experience as a conductor, Silliman put
Henderson in charge of mentoring and
supervising Miller at the time of the accident.
Henderson had been cited five times for rules
violations in 2015 and 2016. On the night of the
accident, when Henderson instructed the engineer
to start the rolling coupling, Henderson had his
back turned toward Miller who was half a car
length away from Henderson. Henderson then
walked backward, still facing away from Miller, as
the engineer proceeded to couple up three railroad
cars, all with Miller being out of Henderson's
eyesight. As Henderson turned to face the south,
he noticed a "flash" in his peripheral vision,
providing further evidence that Miller was out of
Henderson's sight and close supervision.
Together, these facts would support a reasonable
jury in finding that Henderson, for whose acts and
omissions AGS is vicariously responsible, was an
inattentive and careless supervisor whose failure
to mentor and supervise Miller contributed to the
accident that caused his death.
The majority claims that "[t]here is no record
evidence of any policy for which a conductortrainee must always be within view of their
supervisor." However, Darren Gooch, a

25a
Appendix C
trainmaster who worked for AGS, testified that
the "rule" when supervising conductor trainees
was to keep them "within sight distance and
close," and Sillimon acknowledged in his
deposition that when he was a conductortrainee, the brakeman or conductor kept him
"within eyesight." This is an issue for the jury,
who could reasonably conclude that AGS was
responsible for Henderson's failure to mentor,
closely supervise, and watch Miller during the
dangerous rolling coupling procedure.
II.
Though Miller may have been negligent in
assuming only a single car was to be coupled and
in moving between the railcars without
requesting 3- Step Protection, it is wellestablished in FELA law that the railroad can
still be liable if its negligence contributed in part
to the danger even when the employee's
negligence was the more direct cause of the
injury. McBride, 564 U.S. at 695 (rejecting the
argument that "the railroad's part ... was too
indirect" a cause when compared to the employee's
negligence). When executing a single car coupling
that Miller was taught in the classroom, the
engineer would stop after each coupling, and
employees would go between each of the newly
coupled cars to turn on the air and check the
connection for the cars. A reasonable jury could
conclude, then, that due to his lack of supervision,
training, and experience, Miller went between the
cars because he did not understand that the crew
was executing a rolling coupling and that the

26a
Appendix C
impacts and movements of the rail cars would not
stop after a single car had been coupled.
Though no case presents identical facts, the
Supreme Court has required the submission of
FELA cases to juries based on even slighter
proof of negligence and causation. See Lavender
v. Kurn, 327 U.S. 645, 648-49, 652 (1946)
(circumstantial evidence that worker killed by
skull fracture was struck on head by mail hook
swinging from side of railway company's mail
car was sufficient for jury); Gallick v. Baltimore &
Ohio R.R. Co., 372 U.S. 108, 109-10, 122 (1963)
(upholding a jury verdict for a plaintiff who lost
both his legs as a result of an infected insect bite
because railroad was negligent in maintaining a
stagnant pool of water attractive to vermin and
insects).
***
The Supreme Court has instructed that "the
test of a jury case [under FELA] is simply whether
the proofs justify with reason the conclusion that
employer negligence played any part, even the
slightest, in producing the injury or death for
which damages are sought." Rogers, 352 U.S. at
506. "The burden of the employee is met ... when
there
is
proof,
even
though
entirely
circumstantial, from which the jury may with
reason make that inference." Id. at 508. It is
irrelevant that "the jury may also with reason, on
grounds of probability, attribute the result to other
causes, including the employee's contributory
negligence." Id. at 506.

27a
Appendix C
Submission of a FELA case to the jury is
required "in all but the infrequent cases where
fair-minded jurors cannot honestly differ whether
fault of the employer played any part in the
employee's injury." Id. at 510. This case is clearly
not one of those rare cases in which every
reasonable juror must conclude that the
employer's negligence played no part - not even
the slightest – in the employee's injury and death.
See id.; McBride, 564 U.S. at 692. The majority
opinion, in failing to account for the special
features of FELA's negligence action that make it
significantly different from the ordinary commonlaw negligence action, contributes to the steady
erosion and undermining of the right to a jury trial
under FELA in this Circuit. See also Huffman v.
Union Pac. R.R., 675 F.3d 412, 426, 433 (5th Cir.
2012) (Dennis, J., dissenting) ("The evidence in
this case is manifestly sufficient to meet the test
of a jury case under the FELA, which is simply
whether employer negligence played any part,
even the slightest, in producing the injury."). For
the foregoing reasons, I dissent.

28a
Appendix D
APPENDIX D – JUDGMENT OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION; FILED NOVEMBER 17,
2017
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI
EASTERN DIVISION
SHAQUERE GRAY and HANNAH
HOZE, appearing as co-personal
representatives on behalf of the
Estate of Gregory Tremaine Miller
v.

PLAINTIFFS

CIVIL ACTION NO. 2:16-CV-25-KS-MTP

THE ALABAMA GREAT SOUTHERN
RAILROAD COMPANY
DEFENDANT
JUDGMENT
For the reasons stated in the Court’s previous Order
and in accordance with Federal Rule of Civil Procedure
58, the Court enters this Final Judgment in favor of
Defendant. Plaintiff’s claims are dismissed with
prejudice. This case is closed.
SO ORDERED AND ADJUDGED this the __17th__
day of November, 2017.
s/Keith Starrett

29a
Appendix D
KEITH STARRETT
UNITED STATES DISTRICT JUDGE

30a
Appendix E
APPENDIX E – MEMORANDUM OPINOIN OF
THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION; FILED NOVEMBER 17,
2017
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI
EASTERN DIVISION
SHAQUERE GRAY and HANNAH
HOZE, appearing as co-personal
representatives on behalf of the
Estate of Gregory Tremaine Miller
v.

PLAINTIFFS

CIVIL ACTION NO. 2:16-CV-25-KS-MTP

THE ALABAMA GREAT SOUTHERN
RAILROAD COMPANY
DEFENDANT
MEMORANDUM OPINION AND ORDER
This matter is before the Court on the Motion for
Summary Judgment [132] and various Motions to
Exclude [134][136][138] filed by Defendant Alabama
Great Southern Railroad Company. After reviewing the
submissions of the parties, the record, and the
applicable law, the Court finds that the Motion for
Summary Judgment [132] is well taken and should be
granted. The Court further finds that the Motions to
Exclude [134][136][138] should be denied as moot.

31a
Appendix E
I.

INTRODUCTION

This is a negligence action under the Federal
Employer’s Liability Act (“FELA”), 45 U.S.C. § 51, et
seq., brought by Plaintiffs Shaquere Myleshia Gray and
Hannah Lasha Hoze (“Plaintiffs”) against Defendant
Alabama Great Southern Railroad Company
(“Defendant”) on behalf of the estate of Gregory
Tramaine Miller (“Miller”).
This action is centered around an incident which
occurred on August 12, 2015, while Miller was working
for Defendant as a conductor trainee. The Train on
which Miller was working pulled into a facility in Petal,
Mississippi. Miller had ridden to the facility on the west
side of the train and crossed over to the east side of the
train upon arrival, utilizing what is known as “3-Step
protection” in the process.
3-Step protection is a safety procedure utilized by
Defendant when employees cross between equipment
on the railway tracks. Employees are to verbally
request and obtain 3-Step protection whenever
crossing between standing cars. (See NS Operating
Rule 22 [132-5].) Employees are never to cross
between moving rail cars for any reason. (See id.)
When 3-Step protection includes taking the following
three actions:
a.
Fully apply the independent brake; and when
air is coupled in, make a brake pipe reduction to
sufficient hold equipment . . .
b.
Place the reverser lever in neutral position.
c.
Open the generator field swich.
(Id.)

32a
Appendix E
After Miller crossed over to the east side of the
train, the train crew began what is referred to as a
“bunch” coupling, which is the coupling of multiple
train cars together by “shoving” them together.
During this time, the train speed never exceeded two
miles an hour. 1 For unknown reasons, Miller stepped
between two rail cars while this bunch coupling was
being done. Crew members later found Miller between
two coupled cars. He died from his injuries shortly
thereafter.
II. MOTION FOR SUMMARY JUDGMENT [132]
A.

Standard of Review

Federal Rule of Civil Procedure 56 provides that
“[t]he court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“Where the burden of production at trial ultimately
rests on the nonmovant, the movant must merely
demonstrate an absence of evidentiary support in the
record for the nonmovant’s case.” Cuadra v. Houston
Indep. Sch. Dist., 626 F.3d 808, 812 (5th Cir. 2010)
(citation and internal quotation marks omitted). The
nonmovant must then “come forward with specific
facts showing that there is a genuine issue for trial.”
Id. “An issue is material if its resolution could affect
the outcome of the action.” Sierra Club, Inc. v. Sandy
Creek Energy Assocs., L.P., 627 F.3d 134, 138 (5th Cir.
2010) (quoting Daniels v. City of Arlington, Tex., 246
The only evidence before the Court as to the speed of the train comes from
Defendant’s expert Foster J. Peterson. (See Peterson Affidavit [132-5] at ¶ 9.)

1

33a
Appendix E
F.3d 500, 502 (5th Cir. 2001)). “An issue is ‘genuine’ if
the evidence is sufficient for a reasonable [fact-finder]
to return a verdict for the nonmoving party.” Cuadra,
626 F.3d at 812 (citation omitted).
The Court is not permitted to make credibility
determinations or weigh the evidence. Deville v.
Marcantel, 567 F.3d 156, 164 (5th Cir. 2009) (citing
Turner v. Baylor Richardson Med. Ctr., 476 F.3d 337,
343 (5th Cir. 2007)). When deciding whether a
genuine fact issue exists, “the court must view the
facts and the inferences to be drawn therefrom in the
light most favorable to the nonmoving party.” Sierra
Club, 627 F.3d at 138. However, “[c]onclusional
allegations and denials, speculation, improbable
inferences, unsubstantiated assertions, and legalistic
argumentation do not adequately substitute for
specific facts showing a genuine issue for trial.” Oliver
v. Scott, 276 F.3d 736, 744 (5th Cir. 2002) (citation
omitted). Summary judgment is mandatory “against a
party who fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Brown v. Offshore Specialty
Fabricators, Inc., 663 F.3d 759, 766 (5th Cir. 2011)
(quoting Celotex Corp. v. Catrett, 477 U.S. 317, 322,
106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986)).
B.

FELA

Although the employee “has a less demanding
burden of proving causal relationship” in a negligence
action under the FELA, he is not excused from
establishing “all the same elements as are found in a
common law negligence action.” Armstrong v. Kan.
City S. Ry. Co., 752 F.2d 1110, 1113 (5th Cir. 1985).

34a
Appendix E
Plaintiffs must therefore establish that Defendant,
“with the exercise of due care, could have reasonably
foreseen that a particular condition could cause
injury; [sic] foreseeability is ‘an essential ingredient’
of negligence under the [FELA].” Id. (quoting Nivens
v. St. Louis Sw. Ry. Co., 425 F.2d 114, 118 (5th Cir.
1970)). Furthermore, “[w]here the employee is guilty
of negligence and his negligence is the sole cause of the
accident, the railroad may not be held liable.” Seymour
v. Ill. Cent. R. Co., 25 F.Supp.2d 734, 738 (S.D. Miss.
1997). “Failure to anticipate negligence on the part of
the plaintiff is not actionable negligence on the part of
the railroad.” Id. Therefore, “[w]here an employee
fails to exercise reasonable care to follow instructions
of his employer, and such negligence is the sole cause
of his injuries and damages, he may not recover under
the FELA.” Id.
Plaintiffs glibly admit that, had Miller utilized 3Step protection, this incident would not have
occurred. 2 Plaintiffs’ own expert testified that he
“would like to think” that 3-Step protection would have
prevented Miller’s accident. 3 (Rangel Depo. [132-18] at
90:5-8.) There is no evidence before the Court to
suggest that this accident could have occurred had
Miller verbally requested 3- Step protection as
Plaintiffs attempt to characterize this argument as a “straw-man
argument” akin to the argument that “if Miller had not come to
work that day, he would not have been killed.” (Response [145] at
pp. 15-16.) However, as one of the safety procedures Defendant
required and expected Miller to follow, the fact that his failure to
follow this procedure led to his injuries and ultimate death is far
from a “straw-man argument.”
3
Plaintiffs argue that these statements were taken out of context,
but they make no attempt to put them into a different context for
the Court.
2

35a
Appendix E
required before stepping “between or immediately in
front of standing cars or locomotives.” (NS Operating
Rule 22 [132-5].) Though Plaintiffs attempt to blame
improper coupling methods for the accident, it is
indisputable that, had 3-Step protection been
requested and given, the coupling would have been
stopped as the rail cars would not have been moving
because the independent brake would have been fully
applied, the reverser lever would be in the neutral
position, and the generator field switch would have
been opened. 4 (See id.)
Similarly, there is also no genuine issue as to
whether Miller understood and knew how to utilize 3Step protection, as he had verbally requested it and
obtained it earlier that night. 5 (See Peterson Affidavit
[132-3] at ¶ 6.) During training, Miller achieved a
perfect score on the 3-Step protection quiz, and scored
97% on the basic railroad safety quiz, demonstrating
that he had an understanding of the procedure. (See
Miller’s Test Scores [132-7].) Though Plaintiffs argue
that Miller was negligently supervised, “[f]ailure to
anticipate negligence,” such as Miller’s negligence in
not requesting 3-Step protection, “is not actionable
negligence on the part of the railroad.” Seymour, 25
F.Supp.2d at 738.
Finally, though Plaintiffs argue that it is
“laughable” to suggest that Defendant would not
There is no evidence that these safeguards would have failed had
Miller requested and obtained 3-Step protection.
5
Though Plaintiffs repeatedly argue that Miller was not trained to
understand what a “bunch” coupling was, they never argue that his
training as to the safety procedures in Operating Rule 22 was
somehow deficient.
4

36a
Appendix E
foresee its employees getting between the rail cars,
(Response [145] at p. 18), they wholly ignore the
actual argument made by Defendant, which is that it
was unforeseeable that Miller would go between
moving cars. The Operating Rules expressly forbid
employees from stepping between moving cars “for
any reason.” (NS Operating Rule 22 [132-5].) It was
not foreseeable that Miller would disregard the safety
procedures and dart between moving rail cars,
particularly when Miller had demonstrated his ability
to follow the same safety procedures earlier that
night.
Therefore, because Plaintiffs have not produced
evidence of any negligent acts attributable to
Defendant that caused the accident and because
Miller’s negligence in moving between the moving rail
cars was not foreseeable, the Court finds that the
Motion for Summary Judgment [132] should be
granted, and Plaintiffs’ claims shall be dismissed
with prejudice.
III. MOTIONS TO EXCLUDE [134][136][138]
Because the Court finds that Defendant is entitled
to summary judgment, the pending Motions to
Exclude [134][136][138] need not be addressed. They
will therefore be denied as moot.
IV. CONCLUSION
IT IS THEREFORE ORDERED AND ADJUDGED
that the Motion for Summary Judgment [132] is
granted. This case is hereby dismissed with
prejudice.

37a
Appendix E
IT IS FURTHER ORDERED AND ADJUDGED
that the Motions to Exclude [134][136][138] are
denied as moot.
SO ORDERED AND ADJUDGED, on this, the _17th
day of November, 2017.
s/Keith Starrett
KEITH STARRETT
UNITED STATES DISTRICT JUDGE

38a
Appendix F

Appendix G STATUTORY
APPENDIX F — RELEVANT
PROVISIONS
45 U.S.C. § 51. Liability of common carriers by railroad,
in interstate or foreign commerce, for injuries to
employees from negligence; definition of employees
Every common carrier by railroad while engaging in
commerce between any of the several States or Territories,
or between any of the States and Territories, or between the
District of Columbia and any of the States or Territories, or
between the District of Columbia or any of the States or
Territories and any foreign nation or nations, shall be liable
in damages to any person suffering injury while he is
employed by such carrier in such commerce, or, in case of the
death of such employee, to his or her personal representative,
for the benefit of the surviving widow or husband and children
of such employee; and, if none, then of such employee’s parents;
and, if none, then of the next of kin dependent upon such
employee, for such injury or death resulting in whole or in part
from the negligence of any of the officers, agents, or employees
of such carrier, or by reason of any defect or insufficiency, due to
its negligence, in its cars, engines, appliances, machinery, track,
roadbed, works, boats, wharves, or other equipment.
Any employee of a carrier, any part of whose duties as such
employee shall be the furtherance of interstate or foreign
commerce; or shall, in any way directly or closely and
substantially, affect such commerce as above set forth shall, for the
purposes of this Act be considered as being employed by such
carrier in such commerce and shall be considered as entitled to
the benefits of this Act and of an

39a
Appendix F

Act entitled “An Act relating to the liability of common carriers
by railroad to their employees in certain cases” (approved April
22, 1908) [45 USCS §§ 51 et seq.] as the same has been or may
hereafter be amended.
45 U. S.C. § 52. Carriers in Territories or other
possessions of United States
Every common carrier by railroad in the Territories, the District
of Columbia, the Panama Canal Zone, or other possessions of the
United States shall be liable in damages to any person suffering
injury while he is employed by such carrier in any of said
jurisdictions, or,in case of the death of such employee, to his or her
personal representative, for the benefit of the surviving widow or
husband and children of such employee; and, if none, then of
such employee’s parents; and, if none, then of the next of kin
dependent upon such employee, for such injury or death resulting
in whole or in part from the negligence of any of the officers,
agents, or employees of such carrier, or by reason of any defect
or insufficiency, due to its negligence, in its cars, engines,
appliances, machinery, track, roadbed, works, boats, wharves,
or other equipment.
45 U.S.C. § 53. Contributory negligence; diminution of
damages
In all actions hereafter brought against any such common
carrier by railroad under or by virtue of any of the provisions
of this act [45 USCS §§ 51 et seq.] to recover damages for
personal injuries to an employee, or where such injuries have
resulted in his death, the fact

40a
Appendix F

that the employee may have been guilty of contributory
negligence shall not bar a recovery, but the damages shall be
diminished by the jury in proportion to the amount of negligence
attributable to such employee: Provided, that no such employee
who may be injured or killed shall be held to have been guilty of
contributory negligence in any case where the violation by such
common carrier of any statute enacted for the safety of
employees contributed to the injury or death of such employee.
45 U.S.C. § 54. Assumption of risks of employment
In any action brought against any common carrier under or by
virtue of any of the provisions of this Act [45 USCS
§§ 51 et seq.] to recover damages for injuries to, or the death
of, any of its employees, such employee shall not be held to
have assumed the risks of his employment in any case where
such injury or death resulted in whole or in part from the
negligence of any of the officers, agents, or employees of such
carrier; and no employee shall be held to have assumed the risks
of his employment in any case where the violation by such
common carrier of any statute enacted for the safety of
employees contributed to the injury or death of such employee.
45 U.S.C. § 55. Contract, rule, regulation, or device
exempting from liability; set-off
Any contract, rule, regulation, or device whatsoever, the purpose
or intent of which shall be to enable any common carrier to exempt
itself from any liability created by this act [45 USCS §§ 51 et
seq.], shall to that extent be void:

41a
Appendix F

Provided, that in any action brought against any such common
carrier under or by virtue of any of the provisions of this act [45
USCS §§ 51 et seq.], such common carrier may set off therein
any sum it has contributed or paid to any insurance, relief benefit,
or indemnity that may have been paid to the injured employee or
the person entitled thereto on account of the injury or death for
which said action was brought.
45 U. S.C. § 56. Actions; limitation; concurrent
jurisdiction of courts
No action shall be maintained under this act [45 USCS
§§ 51 et seq.] unless commenced within three years from the day
the cause of action accrued.
Under this act [45 USCS §§ 51 et seq.] an action may be brought
in a circuit [district] court of the United States, in the district of the
residence of the defendant, or in which the cause of action arose,
or in which the defendant shall be doing business at the time of
commencing such action. The jurisdiction of the courts of the
United States under this act [45 USCS §§ 51 et seq.] shall be
concurrent with that of the courts of the several States.
45 U.S.C. § 57. Who included in term “common carrier”
The term “common carrier” as used in this act [45 USCS
§§ 51 et seq.] shall include the receiver or receivers or other
persons or corporations charged with the duty of the management
and operation of the business of a common carrier.

